HHS/OIG-Audit--"Review of Administrative Costs - Medicare Parts A and B -Aetna Life Insurance Company, (A-01-97-00529)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Administrative Costs - Medicare Parts A and B - Aetna Life Insurance Company," (A-01-97-00529)
October 21, 1998
Complete
Text of Report is available in PDF format (2.29 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report covers administrative costs claimed by the Aetna Life Insurance Company for administering Part
A and Part B of the Medicare program for fiscal years 1995 through 1997. Administrative costs reported for the above period
totaled approximately $323 million. The final report points out unallowable costs of and recommends financial adjustments
for $2.9 million. The Aetna agreed to the financial adjustment for $2.9 million.